<html>
<title> - TONGASS TIMBER REFORM ACT</title>
<body><pre>[House Hearing, 104 Congress]
[From the U.S. Government Publishing Office]



 
                                  TONGASS TIMBER REFORM ACT                                                                
  ______________________________________________________________________________________________   
  
                                            HEARING
                                                
                                          BEFORE THE   
                                            
                                    COMMITTEE ON RESOURCES 
                                    
                                           AND THE
                                  
                             SUBCOMMITTEE ON RESOURCE CONSERVATION,                              
                                                                                                                                                                                                        
                                  RESEARCH, AND FORESTRY  
                                  
                                           OF THE
                                               
                                    COMMITTEE ON AGRICULTURE                                   
                                                                             
                                   HOUSE OF REPRESENTATIVES
                                      
                                  ONE HUNDRED FOURTH CONGRESS
                                     
                                        SECOND SESSION
                                          
                                             ON    
                                              
                                          H.R. 3659
                                          
                A BILL TO AMEND THE TONGASS TIMBER REFORM ACT TO ENSURE
                 THE PROPER STEWARDSHIP OF PUBLICLY OWNED ASSETS IN THE
                  TONGASS NATIONAL FOREST IN THE STATE OF ALASKA, A FAIR
                   RETURN TO THE UNITED STATES FOR PUBLIC TIMBER IN THE
                TONGASS, AND A PROPER BALANCE AMONG MULTIPLE USE INTERESTS
                  IN THE TONGASS TO ENHANCE FOREST HEALTH, SUSTAINABLE
                   HARVEST, AND THE GENERAL ECONOMIC HEALTH AND
                   GROWTH IN SOUTHEAST ALASKA AND THE UNITED STATES         
                      
                               ___________________
                                     
                             JULY 11, 1996-WASHINGTON, DC
                               ______________________      
                               
                                 Serial No. 104-92                                 
                               (Committee on Resources)

                                  Serial No. 104-38
                            (Committee on Agriculture)  
                              _____________________                                 
                                     
                               
                                     
                 Printed for the use of the Committee on Resources
                
                
                
                
                

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               U.S. GOVERNMENT PRINTING OFFICE
                               
  26-689 cc                           WASHINGTON : 1996
  _____________________________________________________________________________________
  
                     For sale by the U.S. Government Printing Office
                     
    Superintendent of Documents, Congressional Sales Office, Washington, DC 20402

                                 ISBN 0-16-053778-9
                                 
                                 
                                 
                                 
                                 

 [TEXT NOT AVAILABLE]



</pre></body></html>
